Audit Report




OIG-11-091
Awards to OneUnited Bank Were Consistent With Requirements
But Certain Aspects of CDFI Fund Program Administration Need
to be Revisited
August 3, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
 
Contents

Audit Report

Results in Brief ................................................................................................ 2

Findings… ....................................................................................................... 4

    The CDFI Fund’s Awards and Assistance to OneUnited Complied
       With Applicable Laws, Regulations, and Policies and Procedures………………. 4

    Policies and Procedures Are Needed for Assessing Regulatory Enforcement
       Actions When Considering BEA Program Applications……………………………. 5

    Qualified Activity for the BEA Program Needs Clarification …………………………. 8

    The CDFI Fund Needs to Ensure Applicants Comply With Requirements…………. 10

    Equity Investment Policy Does Not Provide for an Exit Strategy…………………… 11

Recommendations ............................................................................................ 12

Appendices

    Appendix     1:      Objectives, Scope, and Methodology………………………………… 17
    Appendix     2:      Background……………………………………………………………….. 21
    Appendix     3:      Annual CDFI Fund Program Results……………………….…………. 23
    Appendix     4:      Management Response…………………………………………………. 24
    Appendix     5:      Major Contributors to This Report……………………………….…… 30
    Appendix     6:      Report Distribution................................................................ 31

Abbreviations

    BEA                      Bank Enterprise Award
    CDFI                     Community Development Financial Institutions
    CPP                      Capital Purchase Program
    FDIC                     Federal Deposit Insurance Corporation
    FMS                      Financial Management Service
    JAMES                    Joint Audit Management Enterprise System
    OIG                      Department of the Treasury Office of Inspector General
    TA                       Technical Assistance
    TARP                     Troubled Asset Relief Program

                         Awards to OneUnited Bank Were Consistent With Requirements But                      Page i
                         Certain Aspects of CDFI Fund Program Administration Need to be Revisited
                         (OIG-11-091)
          This page left intentionally blank




Awards to OneUnited Bank Were Consistent With Requirements But             Page ii
Certain Aspects of CDFI Fund Program Administration Need to be Revisited
(OIG-11-091)
                                                                                        Audit
OIG
The Department of the Treasury
                                                                                        Report
Office of Inspector General




                     August 3, 2011

                     Donna Gambrell
                     Director, Community Development
                       Financial Institutions Fund

                     This report presents the results of our audit of the awards and
                     assistance provided by the Community Development Financial
                     Institutions (CDFI) Fund to OneUnited Bank (OneUnited). In total,
                     since 1997 OneUnited and its predecessor institution, Boston Bank
                     of Commerce, received $5.5 million from the CDFI Fund through its
                     CDFI Program and Bank Enterprise Award (BEA) Program. We
                     undertook this audit because of media reports surrounding
                     OneUnited and Congresswoman Maxine Waters’ financial interest
                     in the institution. 1

                     The objective of our audit was to determine whether the awards
                     and assistance provided to OneUnited were made in compliance
                     with applicable laws, regulations, and CDFI Fund policies and
                     procedures. As part of our work, we reviewed all awards made to
                     OneUnited, sampled awards to other banks, and interviewed CDFI
                     Fund management and staff. Appendix 1 contains a more detailed
                     description of our audit objectives, scope, and methodology.
                     Appendix 2 contains background information on OneUnited’s
                     history and CDFI Fund programs. Appendix 3 provides a summary
                     of annual awards for applicable programs.




1
 As reported in her 2004 financial disclosure statement, Congresswoman Waters purchased and then
sold an interest in OneUnited during 2004. In addition, from 2002 through 2009, Congresswoman
Waters reported that her spouse held an interest in OneUnited.

                     Awards to OneUnited Bank Were Consistent With Requirements But             Page 1
                     Certain Aspects of CDFI Fund Program Administration Need to be Revisited
                     (OIG-11-091)
Results In Brief
               We concluded that the CDFI Fund made its awards and provided
               assistance to OneUnited in accordance with applicable laws,
               regulations, and Fund policies and procedures. However, as
               discussed with CDFI officials during the course of our work, we
               disagreed with the decision by the CDFI Fund to hold its
               announcement of OneUnited’s fiscal year 2010 BEA award pending
               completion of this audit. In our opinion, since the application
               review and award approval process had taken place before this
               audit began, the announcement of OneUnited’s fiscal year 2010
               BEA award should have been made commensurate with the CDFI
               Fund’s announcement of the other fiscal year 2010 BEA awards.

               During our audit, we identified the following issues that require
               action by the CDFI Fund.

               •   Policies and procedures are needed for assessing regulatory
                   enforcement actions when considering BEA Program
                   applications. In assessing those regulatory enforcement actions,
                   the CDFI Fund needs to reconsider the public policy implications
                   of making awards to financial institutions that are under formal
                   regulatory enforcement action.
               •   Qualified activity for the BEA Program needs clarification.
               •   Improved verification is needed of BEA applicant compliance
                   with distressed community requirements.
               •   Equity investment policy does not have an exit strategy.

               We are recommending that the CDFI Fund (1) announce its
               determination on OneUnited’s fiscal year 2010 BEA application;
               (2) establish written policies and procedures for obtaining and using
               information about applicants from the federal banking agencies;
               (3) ensure that BEA Program applicant guidance clearly details
               qualified activity reporting; (4) revise BEA Program reviewer
               guidance to ensure all the relevant information is considered in
               determining distressed community eligibility; and (5) include an exit
               strategy in its equity investment policy.




               Awards to OneUnited Bank Were Consistent With Requirements But             Page 2
               Certain Aspects of CDFI Fund Program Administration Need to be Revisited
               (OIG-11-091)
Management Response

In a written response, CDFI Fund management generally agreed
with our recommendations and stated that corrective action has
already been taken in some cases, and provided corrective action
plans for the others.

With respect to its hold on announcing One United’s fiscal year
2010 BEA Award, the response stated that the CDFI Fund Director
considered the delay prudent given the nature of the audit and after
considering the best interests of the U.S. government. The CDFI
Fund announced the award to OneUnited on July 6, 2011, as the
OIG had validated that the award was made in accordance with
applicable laws, regulations, and CDFI Fund policies and
procedures.

With regard to institutions where a federal regulator has taken a
formal enforcement action, the CDFI Fund management responded
that it has always and will continue to consider public policy
concerns and the government’s best interests before making these
awards. The existence of an enforcement action, even one that
cites excessive compensation and other management problems,
does not indicate that the entire financial institution is not a “good
citizen.” The CDFI Fund discussed the existence of enforcement
actions with federal regulators who indicated that an enforcement
action should not be an automatic disqualifier and that an award
may help the financial institution address some issues. BEA
Program awards are made based on the community development
activity of the entire organization and recognize the ability of a
financial institution to continue to deploy needed resources in
economically distressed communities across the country.

OIG Comment

The corrective actions taken and planned by the CDFI Fund are
responsive to our recommendation. It should be noted that we did
not validate, as part of our audit, the fiscal year 2010 award made
to OneUnited as that award had not been finalized during our
fieldwork. We did find that prior awards to OneUnited were made
in accordance with applicable laws, regulations, and CDFI Fund
policies and procedures. We are also not suggesting that an active
formal enforcement action against a bank is an automatic
Awards to OneUnited Bank Were Consistent With Requirements But             Page 3
Certain Aspects of CDFI Fund Program Administration Need to be Revisited
(OIG-11-091)
                     disqualifier for an award. We also understand that enforcement
                     actions are taken by a bank regulator to address unsafe and
                     unsound conditions at institutions that may not directly impact the
                     activities that qualify for a BEA Program award. We nevertheless
                     find it troubling that banks under formal enforcement actions have
                     received awards and we believe that the CDFI Fund needs to
                     establish more definitive criteria on how regulatory information
                     about applicant banks is used in the award process.

                     The CDFI Fund’s response also commented on several other
                     matters in our report. The response is included as appendix 4.


Findings
                     The CDFI Fund’s Awards and Assistance to OneUnited Complied
                     With Applicable Laws, Regulations, and Policies and Procedures

                     In 1997, OneUnited’s predecessor institution, Boston Bank of
                     Commerce, was awarded financial assistance from the CDFI Fund
                     in the form of an equity investment totaling $750,000. 2 Following
                     that investment, the predecessor institution or OneUnited received
                     seven BEA awards totaling $4,747,170 from 2000 to 2008.

                     We concluded that the CDFI Fund made its awards and provided
                     assistance to OneUnited in accordance with applicable laws,
                     regulations, and CDFI Fund policies and procedures. The CDFI
                     Fund’s processing of OneUnited’s applications was consistent with
                     the processing of applications and awards made to other banks
                     that we reviewed.

                     Although we did not find problems with the awards made to
                     OneUnited, we noted an issue with the CDFI Fund’s handling of
                     OneUnited’s fiscal year 2010 BEA application. After the CDFI Fund
                     reviewed the application and determined that OneUnited was
                     eligible for a $285,166 BEA award in fiscal year 2010, the CDFI
                     Fund Director decided not to announce the bank as a recipient and
                     put the award announcement and disbursement of award funds on

2
 In December 2002, Boston Bank of Commerce, which had previously acquired Peoples National Bank
of Commerce and Founders National Bank, acquired Family Savings Bank and changed its name to
OneUnited Bank.


                     Awards to OneUnited Bank Were Consistent With Requirements But             Page 4
                     Certain Aspects of CDFI Fund Program Administration Need to be Revisited
                     (OIG-11-091)
                       hold pending the results of this audit. On September 30, 2010, the
                       CDFI Fund publicly announced those fiscal year 2010 BEA
                       applicants that were approved for award, except for OneUnited. At
                       that time, denied applicants were also sent a declination letter.

                       The CDFI Fund’s decision to hold the announcement and
                       disbursement of OneUnited’s fiscal year 2010 BEA award is a
                       serious concern to us. The CDFI Fund should not have been
                       influenced by our ongoing audit, as long as it consistently followed
                       a process with which it had confidence was in accordance with
                       applicable laws, regulations, and CDFI Fund policies and
                       procedures.

                       Policies and Procedures Are Needed for Assessing Regulatory
                       Enforcement Actions When Considering BEA Program Applications

                       BEA Program regulation 12 CFR §1806.203(f) states that the CDFI
                       Fund, in its sole discretion, may deny or limit the amount of an
                       award for any reason. In addition, 12 CFR §1806.204(b)(8) gives
                       the CDFI Fund the authority to request any other information it
                       needs to document or otherwise assess the validity of information
                       provided by the applicant. Therefore, the CDFI Fund has full
                       discretion over the criteria used to determine BEA award eligibility.

                       For the first time in the BEA Program, the CDFI Fund considered
                       information obtained from federal banking agencies 3 as part of its
                       review process for applicants in its fiscal year 2010 award cycle.
                       While we consider this an important step to ensure that suitable
                       institutions receive awards and assistance, the CDFI Fund has yet
                       to develop written policies and procedures as to how federal
                       banking agency information should be considered, such as what
                       conditions reported by a regulator would result in a denial of an
                       award. We were told such policies and procedures were being
                       developed and that the CDFI Fund has memorandums of
                       understanding with the federal banking agencies as to what
                       information would be provided, used, and safeguarded.

3
 The federal banking agencies are the Office of the Comptroller of the Currency, the Office of Thrift
Supervision, the Board of Governors of the Federal Reserve System, the Federal Deposit Insurance
Corporation, and the National Credit Union Administration. Under P.L. 111-203, the functions of the
Office of Thrift Supervision are transferred to the Office of Comptroller of the Currency, the Federal
Reserve System, and the Federal Deposit Insurance Corporation on July 21, 2011, and the Office of
Thrift Supervision is to be abolished 90 days later.

                       Awards to OneUnited Bank Were Consistent With Requirements But               Page 5
                       Certain Aspects of CDFI Fund Program Administration Need to be Revisited
                       (OIG-11-091)
                       For the fiscal year 2010 awards cycle, the CDFI Fund approved 12
                       banks for BEA awards that were under cease and desist orders 4 or
                       another formal enforcement action from their federal banking
                       agency, including OneUnited.

                       With respect to the fiscal year 2010 award cycle, the CDFI Fund
                       obtained some but not the same information from three of the five
                       federal banking agencies. 5 The three federal banking agencies
                       provided the CDFI Fund narrative descriptions of active
                       enforcement actions against applicant banks and their overall
                       Community Reinvestment Act 6 rating of the banks. One of the
                       three federal banking agencies also provided its latest CAMELS 7
                       ratings of applicants. 8 We asked a BEA program manager what the
                       CDFI Fund did with the information. We were told that the CDFI
                       Fund considered whether any reported enforcement actions
                       directed the respective applicant bank to stop engaging in the
                       activities that serve as the basis for a BEA award; specifically,
                       lending by the bank in a distressed community. So, if the applicant
                       was prohibited by an enforcement action from further lending in
                       that distressed community, the CDFI Fund would not approve that
                       bank for a BEA award.

4
  In accordance with the Federal Deposit Insurance Act, Section 8(b), federal banking agencies have the
authority to, among other things, issue formal enforcement actions requiring banks to cease and desist
from engaging in unsafe and unsound practices or violation of law and to take affirmative action to
remedy those conditions. Formal enforcement actions, like cease and desist orders, are publicly
disclosed.
5
  One federal banking agency did not respond to the CDFI Fund’s request for information. Because
credit unions are ineligible for BEA awards, the CDFI Fund did not request information from the National
Credit Union Administration (the fifth federal banking regulator).
6
  The Community Reinvestment Act encourages commercial banks and savings associations to help
meet the needs of borrowers in all segments of the communities they serve, including low- and
moderate-income neighborhoods. The Act requires the federal banking agencies to assess banks, under
their respective supervision, in meeting the credit needs of the local communities in which they are
chartered, consistent with safe and sound banking practices.
7
  Federal banking agencies use the Uniform Financial Institutions Rating System, or “CAMELS,” to
assign composite and component ratings to financial institutions. An institution’s composite CAMELS
rating integrates ratings from six component areas—capital adequacy, asset quality, management,
earnings, liquidity, and sensitivity to market risk. The ratings range from 1 to 5 with 1 being the highest
rating and least supervisory concern. CAMELS ratings for active banks are not disclosed publicly.
8
  A fourth federal banking agency declined to provide CDFI Fund with any information. However, BEA
officials reviewed the banks’ most recent financial data and assessed items like profitability, capital
levels, and percent of non-performing loans to total loan portfolio. Accordingly, applicants regulated by
this agency were also treated in an inconsistent manner by the CDFI Fund.

                       Awards to OneUnited Bank Were Consistent With Requirements But                Page 6
                       Certain Aspects of CDFI Fund Program Administration Need to be Revisited
                       (OIG-11-091)
The program manager also told us that the CDFI Fund eliminated
banks from further consideration if they had a CAMELS composite
rating of 5; this resulted in the rejection of two applicants during
the fiscal year 2010 award cycle. While this approach seemed
reasonable, we learned later that the CDFI Fund had CAMELS
ratings only for institutions regulated by one of the five federal
banking agencies. We do acknowledge that a CAMELS rating of 5
is not the only criteria used to eliminate an award applicant, but the
evaluation and ultimate award determination of each applicant
should be based on consistent treatment of consistent information.

In October 2008, the Federal Deposit Insurance Corporation took
regulatory enforcement action against OneUnited by issuing a
cease and desist order. The order addressed OneUnited’s deficient
capital, liquidity, and earnings, as well as issues with excessive
employee compensation and other management problems.
OneUnited is still operating under this cease and desist order. We
found that the BEA program manager reviewed OneUnited’s
outstanding regulatory action and obtained additional information
from the regulator on the matter. We asked the BEA program
manager what criteria were used to approve OneUnited for an
award given the deficiencies at the bank cited in the cease and
desist order. The BEA program manager told us that the CDFI Fund
determined that OneUnited should be given the award because the
cease and desist order did not direct the bank to stop its lending
activities in eligible areas, which was the basis for the BEA award.

In our opinion, this raises a serious public policy issue. That is,
should an agency of the federal government be making monetary
awards to financial institutions that are under an active regulatory
enforcement action for engaging in unsafe and unsound banking
practices and/or non-compliance with banking laws? We discussed
this with the CDFI Fund Director who stated that sometimes banks
that are having trouble are the ones that most need an award, and
that financial assistance from the CDFI Fund can help the bank
address specific problems such as capital levels and loan loss
reserves. While we acknowledge the CDFI Fund’s position, we
believe it sends the wrong message to institutions that are not
well-managed or “good citizens” in terms of conducting business
consistent with federal regulatory objectives. Particularly in the
case of OneUnited, where the cease and desist order cited among
Awards to OneUnited Bank Were Consistent With Requirements But             Page 7
Certain Aspects of CDFI Fund Program Administration Need to be Revisited
(OIG-11-091)
                       other things, excessive employee compensation and other
                       management problems. Accordingly, we strongly encourage the
                       CDFI Fund to reconsider its position and give this matter careful
                       attention as it develops its policies and procedures and ensure that
                       those policies and procedures represent the government’s best
                       interests and sound public policy.

                       We did make an observation in the conduct of this audit that we
                       believe is important to point out. Specifically, we noted that in
                       December 2008, OneUnited received $12 million from the
                       Department of the Treasury’s Capital Purchase Program. 9 As of
                       March 31, 2011, OneUnited had missed eight consecutive dividend
                       payments to Treasury on its investment, totaling $1.21 million. 10
                       While the federal government has mechanisms in place to offset
                       tax refunds and other federal payments against debts owed to the
                       federal government, there is no such mechanism or specific legal
                       authority for offsetting late dividend payments owed to Treasury
                       under TARP against other federal payments. Our review found that
                       OneUnited’s dividends owed to Treasury are non-cumulative,
                       meaning it has no legal obligation to pay Treasury unless it declares
                       a dividend. Accordingly, future awards to OneUnited from the CDFI
                       Fund would also not be offset to pay missed TARP dividend
                       payments. While this is legally permissible, we find it troubling
                       nonetheless and plan to conduct further work in this area.

                       Qualified Activity for the BEA Program Needs Clarification

                       The BEA Program provides monetary incentives for insured
                       depository institutions to increase their financing activities in
                       distressed communities. It rewards increases in the dollar volume
                       of qualified financing activities from one year (the baseline year) to
                       the next (the assessment year). Award amounts are based on a
                       percentage of the dollar increase in an awardee’s qualified
                       financing activities. For example, for the fiscal year 2010 cycle,

9
  The Department of the Treasury’s Capital Purchase Program (CPP) is a preferred stock and equity
warrant purchase program carried out by the Department’s Office of Financial Stability; it is part of the
Troubled Asset Relief Program (TARP).
10
   OneUnited is not the only financial institution to have missed dividend payments on TARP CPP
investments. As of March 31, 2011, 173 financial institutions had missed dividend payments to
Treasury totaling $277.3 million. Of that amount, $265.7 million were for cumulative dividends and
interest owed to Treasury by 143 institutions and $11.6 million were for non-cumulative dividends that
would be owed to Treasury by 30 institutions, including OneUnited, if declared by the institutions.

                       Awards to OneUnited Bank Were Consistent With Requirements But              Page 8
                       Certain Aspects of CDFI Fund Program Administration Need to be Revisited
                       (OIG-11-091)
                       awardees that performed distressed community financing activities
                       were eligible to receive a percentage of the increased financing
                       activity from the baseline year. 11

                       Based on our review of OneUnited’s BEA awards and the other
                       BEA awards from our sample, we found that the methodology used
                       by applicants for determining eligible increases in activity was
                       inconsistent because the CDFI Fund’s guidance was not clear.
                       Current BEA application guidance states that an applicant who
                       includes a dollar value for an assessment year’s qualified activity
                       must report the baseline year’s qualified activity. We found that
                       some applicants submitted all qualified activity completed in the
                       baseline year and other applicants, including OneUnited, submitted
                       selective baseline activity. Applicants like OneUnited submitted
                       baseline activity from narrow census tracts that corresponded with
                       its reported assessment year activity, instead of submitting all of
                       its qualified activity completed for the baseline year. Although the
                       CDFI Fund’s current practice is to review qualified activity at the
                       census tract level, current BEA application guidance does not
                       instruct applicants to use individual census tracts when reporting
                       on qualified activity.

                       By OneUnited and certain other applicants reporting information on
                       only qualified activity for specific distressed census tracts, rather
                       than all qualified activity, they are able to show annual increases in
                       qualified activity even though their overall qualified activity may
                       have actually decreased over the same period. For example,
                       OneUnited reported $1.6 million in affordable home loans in its
                       fiscal year 2009 BEA application and $1.1 million in its fiscal year
                       2010 BEA application. On the surface OneUnited’s qualified
                       activity appeared to actually decrease during the assessment period
                       for its fiscal year 201O application; however, OneUnited did not
                       report any of the $1.6 million from fiscal year 2009 as baseline
                       activity for its fiscal year 2010 BEA application. Therefore, the
                       entire $1.1 million from fiscal year 2010 was treated as an
                       increase in activity and was the basis for a BEA award of
                       $285,166.

11
   BEA applicants are eligible to receive a percentage of their increase in qualified distressed community
financing activities, which include affordable housing loans, affordable housing development loans and
related project investments, education loans, commercial real estate loans and related project
investments, home improvement loans, and small business loans and related project investments.

                       Awards to OneUnited Bank Were Consistent With Requirements But               Page 9
                       Certain Aspects of CDFI Fund Program Administration Need to be Revisited
                       (OIG-11-091)
                         CDFI Fund officials explained that OneUnited’s strategy of
                         submitting activity from different and specific distressed census
                         tracts each year is acceptable and that BEA Program laws,
                         regulations, and guidance documents do not require applicants to
                         report all qualified activities for all qualified census tracts. Officials
                         stated that applicants are free to report all qualified activity or to
                         report only activity in specific census tracts.

                         Even so, as illustrated by the OneUnited reporting example, we
                         believe that this represents a fundamental problem with the
                         program’s design. Specifically, even when qualified lending in
                         distressed communities decreases from one year to the next, an
                         applicant can report it in such a way that it appears to show an
                         increase, thus allowing the applicant to be eligible for an award.
                         We do not believe this meets the intent of the program. As
                         discussed in an earlier finding, evaluation and ultimate award
                         determination of each applicant should be based on consistent
                         treatment of consistent information

                         The CDFI Fund Needs to Ensure Applicants Comply With
                         Requirements

                         BEA Program regulations require that eligible lending activity must
                         be in a distressed community. To be designated a distressed
                         community, the community must be an area that is contiguous and
                         has a population of

                         •   not less than 4,000 if any portion of the area is located in a
                             metropolitan area with a population of 50,000 or greater, or
                         •   not less than 1,000 in any other case. 12

                         In addition, the distressed community must be a geographic area
                         where

                         •   at least 30 percent of the eligible residents have incomes below
                             the national poverty level as published by the U.S. Bureau of
                             the Census, and



12
     12 CFR §1806.200.

                         Awards to OneUnited Bank Were Consistent With Requirements But             Page 10
                         Certain Aspects of CDFI Fund Program Administration Need to be Revisited
                         (OIG-11-091)
•   the unemployment rate is at least 1.5 times greater than the
    national average according to the U.S. Bureau of Labor
    Statistics’ most recent data.

BEA regulations also state that an applicant can report eligible
lending activities in two or more geographic units which, in
aggregate, meet the minimum area eligibility requirements provided
that no single geographic unit within the area has a poverty rate
below 20 percent.

In assessing the activity submitted by applicants, the CDFI Fund
checks to determine whether each census tract of activity fully
qualifies as a distressed community (i.e., it meets all the
requirements listed above) or partially qualifies as a distressed
community (i.e., it meets some of the requirements). The CDFI
Fund, however, does not verify in the aggregate whether the
geographic units meet the minimum area eligibility requirements.

Equity Investment Policy Does Not Provide for an Exit Strategy

As of September 30, 2010, the CDFI Fund was holding
approximately $22.3 million in outstanding investments in 26
CDFIs, of which equity securities (non-voting shares of ownership)
represented $15.4 million for 13 CDFIs. Equity securities purchased
by the CDFI Fund are recorded at cost and adjusted annually to
record any permanent impairment to value. We noted that the CDFI
Fund does not have an exit strategy for these equity investments.

The case of OneUnited serves as an illustration of how the CDFI
Fund has acquired equity securities over time. Specifically, in
1998, the CDFI Fund purchased 750 shares of the bank’s Class D
nonvoting convertible preferred stock for a total of $750,000 as a
financial assistance award. The assistance agreement for this
award required OneUnited to meet specific performance goals for
the 5 years following receipt of the award. The CDFI Fund closed
out the assistance agreement in February 2003 under its
determination that OneUnited satisfied the terms of the agreement.




Awards to OneUnited Bank Were Consistent With Requirements But             Page 11
Certain Aspects of CDFI Fund Program Administration Need to be Revisited
(OIG-11-091)
                       Eight years later, however, the CDFI Fund is still holding the equity
                       securities as an investment. 13

                       The CDFI Program regulations at 12 CFR §1805.500 require that
                       all financial assistance awarded be matched with funds from
                       sources other than the federal government. 12 CFR §1805.501
                       goes on to state that matching funds shall be at least comparable
                       in form and value to the financial assistance provided by the CDFI
                       Fund.

                       While the CDFI Fund’s equity investment policy details the process
                       for monitoring the investments for possible impairment, it does not
                       include any guidance with respect to redeeming them after the
                       agreed performance period of the financial assistance is met. As
                       noted above, the CDFI Fund has retained its equity investment in
                       OneUnited for more than 13 years without any redemption or exit
                       plan.

                       Without an exit strategy for these investments, the CDFI Fund
                       bears the additional cost of monitoring the investments for
                       indefinite periods. Additionally, the fact that the Treasury
                       Department has an ownership interest in these institutions could
                       unintentionally create the appearance of a federal guarantee or a
                       perception that such institutions may be given preference when
                       considered for future awards.

                       Recommendations

                       We recommend that the CDFI Fund Director:

                       1. Announce the CDFI Fund’s determination on OneUnited’s fiscal
                          year 2010 BEA application.

                           Management Response

                           The CDFI Fund management announced OneUnited Bank as a
                           fiscal year 2010 BEA Program award recipient on July 6, 2011.


13
  During fiscal year 2010, the Fund recorded $5.9 million in impairment losses on its outstanding equity
securities investments, including a $420,000 impairment loss on its OneUnited investment. As a result,
OneUnited’s investment balance was reduced to $330,000 as of September 30, 2010.

                       Awards to OneUnited Bank Were Consistent With Requirements But             Page 12
                       Certain Aspects of CDFI Fund Program Administration Need to be Revisited
                       (OIG-11-091)
    OIG Comment

    On July 8, 2011, we confirmed that OneUnited was listed
    among the 2010 BEA award recipients on the CDFI Fund’s
    website.

2. Establish written policies and procedures for obtaining and using
   information about applicants from the federal banking agencies.
   The policy and procedures should ensure that the information
   considered for each applicant is consistent, regardless of the
   institution’s federal regulator. We caution the CDFI Fund that
   the best interests of the government and the need for sound
   public policy should be carefully considered when making an
   award to any institution where a federal regulator has taken a
   formal enforcement action. In this regard, the CDFI Fund’s
   policy should clearly state the extraordinary circumstances for
   making an award to an institution under a formal enforcement
   action, if permissible at all.

    Management Response

    The CDFI Fund has a long standing history of interagency
    coordination and has instituted written memorandums of
    understanding with several bank regulatory agencies to facilitate
    the sharing and evaluation of regulatory information prior to the
    fiscal year 2010 BEA Program round. On April 7, 2011, the
    CDFI Fund Director approved the CDFI Fund Regulator Review
    Process, a policy for requesting and incorporating the review of
    regulatory information in a funding round. The CDFI Fund will
    review and revise the current policy, as appropriate. The
    timeframe for completing this action is fiscal year 2012.

    OIG Comment

    The commitment by CDFI Fund management to review and
    revise current policy, as appropriate, meets the intent of this
    recommendation. The CDFI Fund will need to establish a
    definitive date that this planned action is expected to be




Awards to OneUnited Bank Were Consistent With Requirements But             Page 13
Certain Aspects of CDFI Fund Program Administration Need to be Revisited
(OIG-11-091)
                            completed in the Joint Audit Management Enterprise System
                            (JAMES). 14

                        3. Ensure that BEA Program applicant guidance clearly details
                           qualified activity reporting requirements to ensure that all
                           applications contain consistent information and are assessed
                           fairly. All applicants must be advised as to how the CDFI Fund
                           evaluates increases in qualified activity completed during the
                           period.

                            Management Response

                            CDFI Fund management stated they will review the applicant
                            guidance and ensure that qualified activity reporting
                            requirements are clearly articulated in the fiscal year 2012
                            materials. The timeframe for completing this action is fiscal year
                            2012.

                            OIG Comment

                            Management’s planned actions meet the intent of our
                            recommendation. The CDFI Fund will need to establish a
                            definitive date that this planned action is expected to be
                            completed in JAMES.

                        4. Revise BEA Program reviewer guidance to ensure that
                           application reviewers consider all the relevant information in
                           determining distressed community eligibility, especially when
                           some of the claimed lending activity occurs in geographic areas
                           that do not meet all the requirements for a distressed
                           community. The CDFI Fund must ensure that, as a whole, the
                           lending area claimed by applicants fully meets distressed
                           community eligibility requirements. The timeframe for
                           completing this action is fiscal year 2012.

                            Management Response

                            The CDFI Fund will review and revise the application, systems,
                            and reviewer guidance, as appropriate, to ensure that
                            application reviewers consider all the relevant information in

14
     JAMES is the Department of the Treasury’s audit recommendation tracking system.

                        Awards to OneUnited Bank Were Consistent With Requirements But             Page 14
                        Certain Aspects of CDFI Fund Program Administration Need to be Revisited
                        (OIG-11-091)
    determining distressed community eligibility and that the lending
    areas claimed by applicants fully meet distressed community
    eligibility requirements.

    OIG Comment

    Management’s planned actions meet the intent of our
    recommendation. The CDFI Fund will need to establish a
    definitive date that this planned action is expected to be
    completed in JAMES.

5. Revise the CDFI Fund’s equity investment policy to include an
   exit strategy for its equity investments.

    Management Response

    The CDFI Fund noted that while the current Equity Investment
    Policy for the CDFI Program does not contain an explicit
    strategy, the individual awardee Assistance Agreements
    generally allow for the sale of the investment at the discretion
    of the CDFI Fund. Nevertheless, the CDFI Fund will revise the
    Equity Investment Policy to include an appropriate exit strategy
    for equity investments. The timeframe for completing this action
    is fiscal year 2012.

    OIG Comment

    Management’s planned action meets the intent of our
    recommendation. The CDFI Fund will need to establish a
    definitive date that this planned action is expected to be
    completed in JAMES.




Awards to OneUnited Bank Were Consistent With Requirements But             Page 15
Certain Aspects of CDFI Fund Program Administration Need to be Revisited
(OIG-11-091)
                              * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-6512 or Susan Roy, Audit Manager, at
(202) 927-5746. Major contributors to this report are listed in
appendix 6.


/s/

Michael J. Maloney
Audit Director




Awards to OneUnited Bank Were Consistent With Requirements But             Page 16
Certain Aspects of CDFI Fund Program Administration Need to be Revisited
(OIG-11-091)
                          Appendix 1
                          Objectives, Scope, and Methodology


                          The objective of our audit was to determine whether the Bank
                          Enterprise Award (BEA) awards and other financial assistance
                          provided to OneUnited Bank (OneUnited) were made in compliance
                          with applicable laws, regulations, and Community Development
                          Financial Institutions (CDFI) Fund policies and procedures. Because
                          of recent publicity surrounding OneUnited and Congresswoman
                          Maxine Waters, we performed this audit of all awards and
                          assistance OneUnited received from the CDFI Fund to determine if
                          the award determinations were proper.

                          The scope of our audit included all applications by OneUnited and
                          its predecessor institution, Boston Bank of Commerce, for CDFI
                          Fund awards and assistance, including OneUnited’s fiscal year
                          2010 BEA application. For each of OneUnited’s awards, we
                          reviewed the award master files and other CDFI Fund records and
                          conducted interviews with CDFI Fund management. Table 1 lists
                          OneUnited’s applications for CDFI Fund awards and assistance and
                          the status of those applications since fiscal year 1997.

Table 1: OneUnited Bank’s Financial Assistance and BEA Awards
 Fiscal                 Application/            Award/Assistance
 Yeara       Program Award Number                       Amount                           Comments
                                                                           CDFI approved a $285,166 award but
 2010          BEA         101BE009704                          On Hold
                                                                           put the award on hold.
                                                                           The application was not approved.
                                                                           After adjusting for ineligible items, the
                                                                           CDFI Fund determined that
 2009          BEA         091BE008175                    Not Approved
                                                                           OneUnited’s qualified financing activity
                                                                           had decreased during the assessment
                                                                           period.
 2008        BEA        081BE007683                           $675,000
 2007        BEA        071BE007214                            500,000
 2006        BEA        061BE006828                            500,000
 2005        BEA        051BE005837                            500,000
 2004        BEA        041BE005051                          1,500,000
 2002        BEA        021BE003855                            330,000
 2000        BEA        001BE001970                            742,170
 1997        CDFI       971CD000997                            750,000
 Total Awards and Assistance                                $5,497,170
Source: CDFI Fund historical award documents, www.cdfifund.gov.
a
  OneUnited did not apply for a BEA Program award or other financial assistance in fiscal years 2003, 2001, 1999,
and 1998. The 2009 application was denied after the BEA reviewer determined that some of the submitted activity
was ineligible. The disallowed activity resulted in a decrease in activity and thus no award.


                          Awards to OneUnited Bank Were Consistent With Requirements But                   Page 17
                          Certain Aspects of CDFI Fund Program Administration Need to be Revisited
                          (OIG-11-091)
                      Appendix 1
                      Objectives, Scope, and Methodology


                      In addition to reviewing OneUnited’s awards, we reviewed
                      additional awards from each year in which OneUnited applied for
                      an award. We selected two awards for each year based on the
                      CDFI Fund program type and award amount. We determined
                      whether that the application and award documentation for
                      OneUnited and the other awardees reviewed were consistent with
                      CDFI Fund program criteria. Table 2 lists the other awards we
                      reviewed during our fieldwork.

Table 2: Additional Awards Selected for Review
 Fiscal                                        Award/Assistance
 Year         Program Awardee                          Amount                       Comments
                                                                      The application was not approved.
                                                                      After adjusting for ineligible items, the
                                                                      CDFI Fund determined that the
2009         BEA       Bank A 15                     Not Approved
                                                                      qualified financing activity had
                                                                      decreased during the assessment
                                                                      period.
                                                                      The application was not approved.
                                                                      After adjusting for ineligible items, the
                                                                      CDFI Fund determined that the
2009         BEA       Bank B                        Not Approved
                                                                      qualified financing activity had
                                                                      decreased during the assessment
                                                                      period.
2008         BEA       Shorebank                         $675,000
                       Neighborhood
2008         BEA                                          675,000
                       National Bank
                       Mission Valley
2007         BEA                                          500,000
                       Bank
                       Franklin National
2007         BEA                                          500,000
                       Bank
                       Albina
2006         BEA       Community                          500,000
                       Bank
                       Bank of
2006         BEA                                          500,000
                       America, NA
2005         BEA       Guaranty Bank                      500,000
                       Citizens Bank
2005         BEA                                          500,000
                       and Trust
                       Community
2004         BEA                                        1,500,000
                       Capital Bank

15
  The names of the 2009 non-approved applicants from Table 2 are not public information, therefore
we have called them Bank A and Bank B. The CDFI Fund does not release the names of applicants that
are denied during the award round. We gave the real names of Banks A and B to the CDFI Fund.

                      Awards to OneUnited Bank Were Consistent With Requirements But                   Page 18
                      Certain Aspects of CDFI Fund Program Administration Need to be Revisited
                      (OIG-11-091)
                        Appendix 1
                        Objectives, Scope, and Methodology


Fiscal                                            Award/Assistance
Year          Program       Awardee                       Amount                     Comments
                            Carver Federal
2004          BEA                                         1,500,000
                            Savings Bank
                            Bank of
2002          BEA           Cherokee                        330,000
                            County
                            MemphisFirst
2002          BEA           Community                       330,000
                            Bank
                            Laredo National
2000          BEA                                           768,354
                            Bank
2000          BEA           Keybank, NA                     668,500
                            Boston
1997          CDFI          Community                     1,000,000
                            Capital, Inc.
                            Sable
1997          CDFI                                        1,000,000
                            Bancshares, Inc.
Total Awards and Assistance                            $11,446,854
Source: CDFI Fund historical award documents, www.cdfifund.gov.


                        We conducted our fieldwork from August 2010 to December
                        2010. We reviewed the CDFI Funds award files for OneUnited
                        award files and compared them to our sample files to determine if
                        the awards and assistance were provided in accordance with CDFI
                        Fund policies and procedures and in a consistent manner. As part
                        of this work, we reviewed all pertinent criteria, including applicable
                        laws, regulations, and CDFI Fund policies and procedures. We also
                        reviewed CDFI Fund standards of practice, Notices of Funds
                        Availability, and application reviewer guidance. We chose not to
                        sample additional applications from the fiscal year 2010 BEA
                        Program cycle because all final award determinations had not been
                        made during the time of our fieldwork.

                        We also performed the following fieldwork:

                        •     We interviewed CDFI Fund officials and staff, including officials
                              and staff responsible for the BEA Program and CDFI Fund
                              counsel to obtain an understanding of these programs and to
                              obtain answers to specific questions regarding OneUnited’s
                              awards.



                        Awards to OneUnited Bank Were Consistent With Requirements But             Page 19
                        Certain Aspects of CDFI Fund Program Administration Need to be Revisited
                        (OIG-11-091)
Appendix 1
Objectives, Scope, and Methodology



•   We contacted OneUnited to verify that the bank account
    numbers used to deposit CDFI Fund awards belonged to the
    bank and were corporate accounts, not personal accounts.

•   We obtained Congresswoman Waters’s 2008 through 2010
    financial disclosure statements from the Office of the Clerk for
    the U.S. House of Representatives. We also contacted
    Congresswoman Waters’s office where her Chief of Staff
    referred us to the public website, www.opensecrets.org, which
    held her financial disclosure statements from 1995 through
    2009. We reviewed the financial disclosure statements to
    determine the nature of her involvement with OneUnited.

•   We interviewed the CDFI Fund Director to discuss OneUnited’s
    awards and its fiscal year 2010 BEA application status.

•   We reviewed historical award program documents available on
    the CDFI Fund’s website to establish annual summary
    information for the programs under which OneUnited received
    awards. A table of this information is provided in appendix 3.

In addition, we reviewed OneUnited’s TARP Capital Purchase
Program (CPP) contract and consulted Treasury’s Financial
Management Service (FMS) on OneUnited’s missed dividend
payments. An FMS official stated that Treasury is not offsetting
federal payments for missed TARP CPP dividends. Our review
found that the dividends owed Treasury by OneUnited are non-
cumulative, meaning that OneUnited has no legal obligation to pay
Treasury unless it declares a dividend. OneUnited has not declared
a dividend since receiving assistance through CPP, and therefore
has not made any quarterly dividend payments to Treasury. None is
required under the terms of OneUnited’s TARP CPP.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.



Awards to OneUnited Bank Were Consistent With Requirements But             Page 20
Certain Aspects of CDFI Fund Program Administration Need to be Revisited
(OIG-11-091)
Appendix 2
Background


Community Development Financial Institutions (CDFI) Fund

The CDFI Fund was established by the Riegle Community
Development and Regulatory Improvement Act of 1994. The CDFI
Fund’s mission is to increase economic opportunity and promote
community development investments for underserved populations
and in distressed communities in the United States. The CDFI Fund
achieves its purpose by promoting access to capital and local
economic growth through the following:

•   Community Development Financial Institutions Program
•   New Markets Tax Credit Program
•   Bank Enterprise Award Program
•   Native Initiatives
•   Capital Magnet Fund
•   Financial Education and Counseling Pilot Program

Our audit was focused on the two CDFI Fund programs through
which OneUnited Bank (OneUnited) received awards and financial
assistance—Community Development Financial Institutions
Program and Bank Enterprise Award Program.

    Community Development Financial Institutions Program
    Through the CDFI Program, the CDFI Fund provides
    Financial Assistance in the form of grants, loans,
    deposits and equity investments to CDFIs, and
    Technical Assistance grants to CDFIs and entities that
    propose to become certified CDFIs.

        Financial Assistance awards are in the form of
        grants, loans, deposits and equity investments to
        CDFIs that have comprehensive business plans for
        creating community development impact.

        Technical Assistance (TA) awards are in the form of
        grants to CDFIs and entities proposing to become
        CDFIs in order to build their capacity to advance
        community development and meet capital access
        needs in their target markets. TA awards can also be
        accessed by larger and more established CDFIs to
        support their continued development.



Awards to OneUnited Bank Were Consistent With Requirements But             Page 21
Certain Aspects of CDFI Fund Program Administration Need to be Revisited
(OIG-11-091)
Appendix 2
Background


    Bank Enterprise Award Program
    The BEA Program recognizes the key role played by
    traditional financial institutions in community
    development lending and investing. Through the BEA
    Program, the CDFI Fund provides monetary awards to
    regulated banks and thrifts for increasing their
    investments and financial activities in economically
    distressed communities (those with high poverty and
    unemployment) and/or investments in CDFIs. The size
    of the award is a percentage of the increase in activities
    from one annual reporting period to the next.

OneUnited Bank

OneUnited Bank (OneUnited) was formed from the December 2002
consolidation of four minority-owned banks: Boston Bank of
Commerce in Boston, Massachusetts; Peoples National Bank of
Commerce in Miami, Florida; Founders National Bank in Los
Angeles, California; and Family Savings Bank in Los Angeles,
California. OneUnited is headquartered in Boston and has 10
branches. Three branches are in Massachusetts, 5 branches are in
California, and 2 branches are in Florida.

OneUnited is regulated by the Federal Deposit Insurance
Corporation (FDIC) and as of December 31, 2010, had $522.9
million in total assets. In October 2008, OneUnited consented to
the issuance of a cease and desist order by FDIC in order to
improve the safety and soundness of the bank. The cease and
desist order, FDIC-08-294b, included asset growth restrictions,
minimum capital requirements, dividend payment restrictions, and
executive compensation reductions.




Awards to OneUnited Bank Were Consistent With Requirements But             Page 22
Certain Aspects of CDFI Fund Program Administration Need to be Revisited
(OIG-11-091)
                     Appendix 3
                     Annual CDFI Fund Program Results


The following table summarizes the annual awards for the Bank Enterprise Award
(BEA) Program for 1999 through 2010 and for the Community Development Financial
Institutions (CDFI) Program for 1997 through 1998. The programs and years covered
in the table correspond to the types of awards OneUnited Bank and its predecessor
institution, Boston Bank of Commerce, received from the CDFI Fund (see appendix 1
for a complete list of OneUnited’s awards). OneUnited’s awards (or its predecessor
institution) are included in the program results below, however the fiscal year 2010
pending BEA award was not included.

Table 3: Summary of CDFI Fund Awards
                         Total
Year       Program     Awards     Total Awarded              Average               Low            High
2010         BEA            69        $24,722,288       $358,294               $6,000         $600,000
2009         BEA            55        $22,332,326       $406,042               $6,000         $700,000
2008         BEA            52        $20,101,901       $386,757               $6,000         $675,000
2007         BEA            51        $11,167,711       $218,971               $6,000         $500,000
2006         BEA            47        $11,880,000       $232,941               $5,940         $500,000
2005         BEA            53         $9,896,217       $186,721               $6,000         $500,000
2004         BEA            49        $17,007,562       $347,093               $1,500       $1,500,000
2003         BEA            75        $13,881,938       $185,093               $3,000       $2,141,230
2002         BEA            81        $23,017,603       $284,248                 $375       $2,000,000
2001         BEA           139        $46,147,988       $332,024                 $110       $2,500,000
2000         BEA           159        $46,400,000       $291,986                 $894       $3,350,500
1999         BEA           102        $31,494,652       $308,526               $2,250       $5,104,263
1998         CDFI           54        $54,171,500    $1,003,176               $50,000       $2,500,000
1997         CDFI           54        $43,819,300       $811,469              $78,500       $3,250,000
Source: CDFI Fund historical award documents, www.cdfifund.gov.




                     Awards to OneUnited Bank Were Consistent With Requirements But              Page 23
                     Certain Aspects of CDFI Fund Program Administration Need to be Revisited
                     (OIG-11-091)
             Appendix 4
             Management Response




OIG
Comments
follow the
Response




             Awards to OneUnited Bank Were Consistent With Requirements But             Page 24
             Certain Aspects of CDFI Fund Program Administration Need to be Revisited
             (OIG-11-091)
Appendix 4
Management Response




Awards to OneUnited Bank Were Consistent With Requirements But             Page 25
Certain Aspects of CDFI Fund Program Administration Need to be Revisited
(OIG-11-091)
                Appendix 4
                Management Response




OIG Comment 1




OIG Comment 2

OIG Comment 3




                Awards to OneUnited Bank Were Consistent With Requirements But             Page 26
                Certain Aspects of CDFI Fund Program Administration Need to be Revisited
                (OIG-11-091)
Appendix 4
Management Response




Awards to OneUnited Bank Were Consistent With Requirements But             Page 27
Certain Aspects of CDFI Fund Program Administration Need to be Revisited
(OIG-11-091)
Appendix 4
Management Response




Awards to OneUnited Bank Were Consistent With Requirements But             Page 28
Certain Aspects of CDFI Fund Program Administration Need to be Revisited
(OIG-11-091)
                  Appendix 4
                  Management Response




OIG Comments

    1. We are not suggesting that the CDFI Fund offset BEA awards for delinquent
       TARP dividend payments. We discuss the missed TARP dividends by
       OneUnited only to point out that the federal government does not have a
       mechanism to offset delinquent TARP dividend payments against other
       federal payments going to TARP recipients.

    2. We have clarified in the report that credit unions were ineligible for BEA
       awards.

    3. We did note during our review that the CDFI Fund had obtained CRA rating
       information for all applicants.




                  Awards to OneUnited Bank Were Consistent With Requirements But             Page 29
                  Certain Aspects of CDFI Fund Program Administration Need to be Revisited
                  (OIG-11-091)
Appendix 5
Major Contributors to This Report




Michael J. Maloney, Director, Fiscal Service Audits
Susan I. Roy, Audit Manager
John B. Gauthier, Auditor-in-Charge
Christen J. Stevenson, Referencer




Awards to OneUnited Bank Were Consistent With Requirements But             Page 30
Certain Aspects of CDFI Fund Program Administration Need to be Revisited
(OIG-11-091)
Appendix 6
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Community Development Financial Institutions Fund

    Director
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner




Awards to OneUnited Bank Were Consistent With Requirements But             Page 31
Certain Aspects of CDFI Fund Program Administration Need to be Revisited
(OIG-11-091)
